           U.S. Department of
                                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                   Date:   October 26, 2009
           Single Audit on the Metropolitan Transportation
           Authority, New York
           Report No. QC-2010-005
                                                                                 Reply To   JA-20

  From:    Earl C. Hedges                                                        Attn Of:
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region III

           The U. S. Department of Transportation is the cognizant Federal single audit
           agency for the New York Metropolitan Transportation Authority (the Authority), a
           component unit of the State of New York. This report presents the results of our
           Quality Control Review of a single audit performed by Deloitte & Touche, LLP on
           the Authority for the fiscal year ending December 31, 2007. During this period of
           time, the Authority received about $1.55 billion from three Federal Transit
           Administration (FTA) grant programs.

             DOT Operating                CFDA*        Program              FY 2008         Major   Direct
             Administration                  #           Name              Expenditures Program Award
               Federal Transit                        Capital Investment
                                           20.500                          $653,260,738      Yes      Yes
               Administration                          Grants Program
               Federal Transit                         Formula Grants
                                           20.507                          $697,853,715      Yes      Yes
               Administration                             Program
                                                      Lower Manhattan
               Federal Transit
                                         20.unknown   Recovery Office      $200,476,633      Yes      Yes
               Administration
                                                          Grant
           * Catalogue of Federal Domestic Assistance


           The Office of Management and Budget (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations;” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.
                                                                                                     2
Deloitte & Touche rendered an unqualified (clean) opinion on the Authority’s
financial statements and did not question any costs concerning FTA grant
programs. In addition, Deloitte & Touche did not identify any internal control or
compliance deficiencies that directly affect FTA programs. In issuing its report on
the New York Metropolitan Transportation Authority, Deloitte & Touche relied on
the audit performed by PricewaterhouseCoopers on the Authority’s subcomponent
agencies--New York City Transit Authority, Staten Island Rapid Transit Operating
Authority, and the Metropolitan Suburban Bus Authority. Together, these
subcomponent agencies received about $1.08 billion from FTA grant programs.

We performed quality control reviews on both firms’ work 1 and found
documentation deficiencies in PricewaterhouseCoopers’ work. Both firms
concurred with our recommendations to correct the deficiencies identified and to
enhance workpaper review in next year’s audit. PricewaterhouseCoopers also
agreed to provide its fiscal year 2008 audit workpapers for our follow-up review.

The purpose of our review was to determine: (1) the adequacy of auditors’ work;
(2) whether the work complied with Generally Accepted Government Auditing
Standards as prescribed by the Comptroller of the United States, the Single Audit
Act of 1984, as amended (Act), and OMB Circular A-133; and (3) the extent to
which we could rely on the auditors’ work.


RESULTS

Based on our Quality Control Review of Deloitte & Touche’s work, we
determined the work met the requirements of Generally Accepted Government
Auditing Standards, the Act, and OMB Circular A-133. We found nothing to
indicate that Deloitte & Touche’s opinion on the financial statements or reports on
internal control and compliance were inappropriate or unreliable.

Our review of PricewaterhouseCoopers’ testing of the compliance requirements
found that the work generally met the requirements of Generally Accepted
Government Auditing Standards, the Act, and OMB Circular A-133. We found
nothing to indicate that PricewaterhouseCoopers’ opinion on major program
compliance was inappropriate or unreliable.         However, we identified
documentation deficiencies in both New York City Transit Authority and
Metropolitan Suburban Bus Authority single audits.

PricewaterhouseCoopers provided explanations and additional documents in
response to our concerns. Based on the information provided, we determined that
1
    We performed a limited review of PricewaterhouseCoopers’ single audit work related to the New York
    City Transit Authority and Metropolitan Suburban Bus Authority.           The review focused on
    PricewaterhouseCoopers’ understanding, planning, and testing of internal controls on the applicable
    compliance requirements related to FTA Capital Improvement and Formula Grant Programs.
                                                                                                             3
these documentation deficiencies did not affect PricewaterhouseCoopers’ overall
audit results. However, these deficiencies should be corrected in future audits to
adequately support audit conclusions. The deficiencies are related to the following
areas:

1. Understanding and Testing of Major Program Internal Controls.
   PricewaterhouseCoopers’ audit workpapers did not adequately document its
   understanding and testing of current internal controls related to FTA grant
   program compliance requirements. Specifically, PricewaterhouseCoopers
   carried forward its internal control memo from prior year workpapers without
   any updates to reflect the current environment. However, during our review,
   PricewaterhouseCoopers demonstrated that it did evaluate the subcomponent
   agencies’ current internal control structure.

2. Compliance Review and Testing of Major Program.
   PricewaterhouseCoopers did not adequately document the compliance testing
   work performed in two areas--Equipment & Real Property Management
   (Compliance Requirement F) and Procurement and Suspension and Debarment
   (Compliance Requirement I).            Specifically, PricewaterhouseCoopers
   documentation showed it utilized audit procedures designed for financial
   statement testing to conduct its compliance review, which were too general to
   meet OMB Circular A-133 requirements. However, during our review,
   PricewaterhouseCoopers demonstrated that it did perform additional work to
   meet compliance requirement audit objectives.

During our exit conference, we recommended that PricewaterhouseCoopers
correct these documentation issues in its single audits of the New York City
Transit Authority and Metropolitan Suburban Bus Authority for the fiscal year
ending December 31, 2008. In addition, we recommended Deloitte & Touche
review PricewaterhouseCoopers’ fiscal year 2008 work as due diligence, given its
reliance on PricewaterhouseCoopers’ work to issue the report on the Metropolitan
Transportation Authority.2 Both PricewaterhouseCoopers and Deloitte & Touche
concurred with our recommendations. PricewaterhouseCoopers also agreed to
provide its fiscal year 2008 audit workpapers for our follow-up review.

If you have any questions concerning this report, please call me at (410) 962-1729
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                                      #
cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Comptroller, Metropolitan Transportation Authority
2
    The single audit report issued by Deloitte & Touche is available upon request. Requests should be sent
    to singleauditrequest@oig.dot.gov.
